Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MASSACHUSETTS GENERALLY
IMPLEMENTED RECOMMENDATIONS
FROM PRIOR REVIEW OF CLAIMS FOR
 HOSPITAL OUTPATIENT CLINICAL
     LABORATORY SERVICES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                      November 2012
                                                      A-01-12-00005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. The Massachusetts Executive Office of
Health and Human Services, Office of Medicaid (State agency), is responsible for administering
MassHealth, the Massachusetts Medicaid program, in compliance with Federal and State statutes and
administrative policies.

Hospital outpatient clinical diagnostic laboratory services are furnished in a hospital laboratory
for the purpose of providing information for the diagnosis, prevention, or treatment of disease or
for the assessment of a medical condition. Tests are ordered by a physician or a qualified
nonphysician practitioner who is treating the patient. According to section 6300.2 of the CMS
State Medicaid Manual, Medicaid reimbursement for clinical diagnostic laboratory tests may not
exceed the amount set in the Medicare Clinical Laboratory Fee Schedule (Medicare fee
schedule).

We issued a report in 2004 to the State agency on the results of an audit of clinical diagnostic
laboratory services for the period of July 1999 through March 2002. The audit identified
hospital outpatient laboratory claims totaling $8.2 million ($4.1 million Federal share) that
exceeded the Medicare fee schedule payment amounts. These overpayments occurred because
the State agency did not have adequate procedures to ensure that amounts claimed for Medicaid
laboratory services and submitted for Federal reimbursement did not exceed the amount set in
the Medicare fee schedule. Accordingly, we recommended that the State agency:

   •   make an adjustment on the next quarterly report of expenditures for $8.2 million
       ($4.1 million Federal share) and

   •   ensure that amounts claimed for hospital laboratory services and submitted for Federal
       reimbursement do not exceed the Medicare fee schedule amounts.

The State agency disagreed with our findings. Specifically, the State agency stated that we
lacked sufficient legal basis to conclude that it had exceeded the Medicare upper payment limit
for laboratory services. The State agency stated that its billing system for claiming Medicaid
costs for Federal reimbursement complied with 42 CFR § 447.321(b), which states that
aggregate Medicaid payments may not exceed the upper payment limit. However, section
1903(i)(7) of the Act imposes a more specific limit for clinical diagnostic laboratory tests which
supersedes the more general CMS requirements on aggregate limits for certain categories of
services. Therefore, we concluded in our previous report that the State agency’s disagreement
was invalid.

                                                 i
OBJECTIVE

Our objective was to determine whether the State agency had implemented our prior
recommendations (1) to refund $4.1 million in Medicaid overpayments and (2) to ensure that
amounts claimed for hospital outpatient clinical diagnostic laboratory services and submitted for
Federal reimbursement do not exceed the Medicare fee schedule amounts.

SUMMARY OF FINDINGS

The State agency implemented the first recommendation from our prior audit. Specifically, the
State agency made an adjustment on its next quarterly report of expenditures for $8.2 million
($4.1 million Federal share). In general, the State agency implemented our prior audit’s second
recommendation to ensure that amounts claimed for laboratory services and submitted for
Federal reimbursement do not exceed the Medicare fee schedule amounts. However, for a small
number of services (57,412 of the 17,979,166 services that we reviewed) the State agency paid
hospital providers more than the payment amounts in the Medicare fee schedule. As a result, the
Federal reimbursement claimed by the State agency exceeded the rates allowed by Federal and
State requirements by $1,094,560 ($616,832 Federal share).

The Medicaid overpayments occurred because the State agency occasionally did not follow its
existing policies and procedures to ensure that the amounts claimed for hospital outpatient
clinical laboratory services and submitted for Federal reimbursement did not exceed the
allowable payment amounts.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $616,832 to the Federal Government and

   •   follow its existing policies and procedures to ensure that the amounts claimed for hospital
       outpatient clinical laboratory services and submitted for Federal reimbursement do not
       exceed the Medicare fee schedule amounts.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings. The State
agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Medicaid Coverage of Clinical Diagnostic Laboratory Services ................1
              Prior Office of Inspector General Report.....................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          FEDERAL AND STATE REQUIREMENTS.........................................................4

          MEDICAID PAYMENTS EXCEEDED AMOUNTS ALLOWED BY
               MEDICARE .................................................................................................4

          CAUSE OF MEDICAID OVERPAYMENTS ........................................................5

          RECOMMENDATIONS .........................................................................................5

          STATE AGENCY COMMENTS ............................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. The Massachusetts Executive Office of
Health and Human Services, Office of Medicaid (State agency), is responsible for administering
MassHealth, the Massachusetts Medicaid program, in compliance with Federal and State statutes and
administrative policies.

Medicaid Coverage of Clinical Diagnostic Laboratory Services

Hospital outpatient clinical diagnostic laboratory services are furnished in a hospital laboratory
for the purpose of providing information for the diagnosis, prevention, or treatment of disease or
for the assessment of a medical condition. Tests are ordered by a physician or a qualified
nonphysician practitioner who is treating the patient. Clinical laboratory services involve the
following types of examination of materials derived from the human body: biological,
microbiological, serological, chemical, immunohematological, hematological, biophysical,
cytological, pathological, or other examinations of materials.

Hospital providers use CMS’s Healthcare Common Procedural Coding System (HCPCS) codes
to claim clinical laboratory costs for reimbursement from the State agency. The State agency
seeks Federal reimbursement for amounts paid on behalf of Medicaid beneficiaries. The Federal
Government pays its share of State Medicaid expenditures, including claims for clinical
diagnostic laboratory services, according to a formula established in section 1905(b) of the Act.
That share is known as the Federal medical assistance percentage (FMAP). The FMAP in
Massachusetts ranged from 50.00 percent to 61.59 percent during our audit period.

According to section 6300.2 of the CMS State Medicaid Manual, Medicaid reimbursement for
clinical diagnostic laboratory tests may not exceed the amount set in the Medicare Clinical
Laboratory Fee Schedule (Medicare fee schedule).

Prior Office of Inspector General Report

We issued a report in 2004 to the State agency on the results of an audit of hospital outpatient
clinical diagnostic laboratory services for the period of July 1999 through March 2002. 1 The
audit identified hospital outpatient laboratory claims totaling $8.2 million ($4.1 million Federal

1
 Review of Claims Paid for Clinical Diagnostic Laboratory Services Under the Massachusetts Revised Fee
Schedule–July 1999 Through March 2002 (A-01-02-00015).

                                                      1
share) that exceeded the Medicare fee schedule payment amounts. These overpayments occurred
because the State agency did not have adequate procedures to ensure that amounts claimed for
Medicaid laboratory services and submitted for Federal reimbursement did not exceed the
amount set in the Medicare fee schedule. Accordingly, we recommended that the State agency:

    •   make an adjustment on the next quarterly report of expenditures for $8.2 million
        ($4.1 million Federal share) and

    •   ensure that amounts claimed for hospital laboratory services and submitted for Federal
        reimbursement do not exceed the Medicare fee schedule amounts.

The State agency disagreed with our findings. Specifically, the State agency stated that we
lacked sufficient legal basis to conclude that it had exceeded the Medicare upper payment limit
for laboratory services. The State agency stated that its billing system for claiming Medicaid
costs for Federal reimbursement complied with 42 CFR § 447.321(b), which states that
aggregate Medicaid payments may not exceed the upper payment limit. However, section
1903(i)(7) of the Act imposes a more specific limit for clinical diagnostic laboratory tests which
supersedes the more general CMS requirements on aggregate limits for certain categories of
services. Therefore, we concluded in our previous report that the State agency’s disagreement
was invalid. CMS concurred with our finding and recovered $4.1 million from the State agency
on December 31, 2004.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency had implemented our prior
recommendations (1) to refund $4.1 million in Medicaid overpayments and (2) to ensure that
amounts claimed for hospital outpatient clinical diagnostic laboratory services and submitted for
Federal reimbursement do not exceed the Medicare fee schedule amounts.

Scope

We reviewed Medicaid hospital outpatient clinical diagnostic laboratory services that were
submitted by providers and claimed by the State agency for Federal reimbursement on Form
CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program.
The State agency claimed $169,318,677 ($93,594,798 Federal share) for Medicaid hospital
outpatient clinical laboratory services provided during calendar years 2006 through 2010. 2

Our objective did not require an understanding or assessment of the complete internal control
structures at the State agency. Rather, we limited our review to those controls that were
significant to the objective of our audit.



2
 We limited our review to HCPCS codes listed on the Medicare fee schedules for each calendar year. Our review
did not include HCPCS codes without CMS-established payment limits.

                                                       2
We performed our fieldwork at the State agency in Boston and Quincy, Massachusetts, from
March through August 2012.

Methodology

To accomplish our audit objective, we:

   •   reviewed applicable Federal and State laws, regulations, and guidance and the CMS-
       approved State plan;

   •   reviewed our prior audit report on Massachusetts clinical diagnostic laboratory services;

   •   interviewed officials from CMS, the Medicare carrier for Massachusetts, and the State
       agency;

   •   verified that the State agency refunded $4.1 million to the Federal Government for Medicaid
       overpayments identified in our prior audit; and

   •   obtained a computer-generated file from the Massachusetts Medicaid Management
       Information System (MMIS) containing all claims for Medicaid hospital outpatient
       clinical laboratory services submitted by the State agency with HCPCS codes on the
       Medicare fee schedule and service dates during the period of January 1, 2006, through
       December 31, 2010, to:

           o evaluate the file to identify 17,979,166 Medicaid hospital outpatient clinical
             laboratory services totaling $169,318,677 ($93,594,798 Federal share);

           o compute what the Medicare payment limit should be for each service by
             multiplying the Medicare fee schedule rate by the number of units billed, per
             HCPCS code;

           o calculate the difference between the Medicaid amount claimed (paid amount) and
             the Medicare payment limit for each service; and

           o total the differences to determine the amount that the State agency was
             reimbursed in excess of the Medicare fee schedule.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                         FINDINGS AND RECOMMENDATIONS

The State agency implemented the first recommendation from our prior audit. Specifically, the
State agency made an adjustment on its next quarterly report of expenditures for $8.2 million
($4.1 million Federal share). In general, the State agency implemented our prior audit’s second
recommendation to ensure that amounts claimed for laboratory services and submitted for
Federal reimbursement do not exceed the Medicare fee schedule amounts. However, for a small
number of services (57,412 of the 17,979,166 services that we reviewed) the State agency paid
hospital providers more than the payment amounts in the Medicare fee schedule. As a result, the
Federal reimbursement claimed by the State agency exceeded the rates allowed by Federal and
State requirements by $1,094,560 ($616,832 Federal share).

The Medicaid overpayments occurred because the State agency occasionally did not follow its
existing policies and procedures to ensure that the amounts claimed for hospital outpatient
clinical laboratory services and submitted for Federal reimbursement did not exceed the
allowable payment amounts.

FEDERAL AND STATE REQUIREMENTS

Section 1903(i)(7) of the Act, which is expanded in section 6300 of the CMS State Medicaid
Manual, provides that no Federal financial participation would be available to any amounts
expended for clinical diagnostic laboratory tests that exceeded the amount that would be
recognized under the Medicare program.

The Massachusetts State Plan Attachment 4.19-B states that the maximum payment for a
laboratory service shall be the lowest of (1) the maximum amount identified on the fee schedule
in the Code of Massachusetts Regulations, (2) the usual and customary fee, or (3) the amount
recognized under Medicare.

CMS’s Medicare Claims Processing Manual, chapter 16, section 20, states that clinical
laboratory tests are reimbursed on the basis of the Medicare fee schedule published annually by
CMS. For each HCPCS code, Medicare pays the lesser of (1) actual charges, (2) the national
limitation amount on the CMS fee schedule, or (3) the CMS fee schedule amount for the State or
local geographic area.

MEDICAID PAYMENTS EXCEEDED AMOUNTS ALLOWED BY MEDICARE

The State agency generally claimed Federal Medicaid reimbursement for hospital outpatient
clinical diagnostic laboratory services in accordance with Federal and State requirements. Of the
17,979,166 services that we reviewed, the Medicaid payments made by the State agency for
17,921,754 services did not exceed the Medicare fee schedule amounts. However, for the
remaining 57,412 services the State agency paid providers more than would have been paid
under the Medicare program. As a result, the Federal reimbursement claimed by the State
agency exceeded the rates allowed by Federal and State requirements by $1,094,560 ($616,832
Federal share).



                                                4
We determined whether the Medicaid payments for hospital outpatient clinical diagnostic
laboratory services were made in accordance with Federal and State requirements by calculating
the allowable and unallowable paid amounts for each individual service. For example, during
calendar year 2008 a provider billed $187 to the State agency for one unit of service for HCPCS
code 87901 (genotype DNA HIV reverse testing). The State agency paid this amount to the
provider and claimed the same amount for Federal Medicaid reimbursement. On the Medicare
fee schedule for 2008, the national limit was $360 per unit and the State limit for Massachusetts
was $115 per unit. Since the State limit was lower than both the actual charge and the National
limit, we determined that the allowable amount payment was $115 for one unit. As a result, we
identified a Medicaid overpayment in the amount of $72 for this claim ($187 minus $115). In
total, we identified Medicaid payments that exceeded the amounts allowed by Medicare for each
calendar year as follows:

                                                       Services Exceeding Medicare
                          Claimed Services
       Calendar                                                Fee Schedule
        Year        Number of                           Number of     Unallowable
                                    Paid Amount
                    Line Items                          Line Items      Amount
        2006          3,210,638        $30,153,760             7,761       $213,050
        2007          3,392,988         31,669,852             8,622           130,296
        2008          3,585,826         32,852,772            10,159           135,897
        2009          3,788,364         35,552,754            18,235           339,789
        2010          4,001,350         39,089,539            12,635           275,528

       TOTAL         17,979,166       $169,318,677            57,412       $1,094,560


CAUSE OF MEDICAID OVERPAYMENTS

The Medicaid overpayments occurred because the State agency occasionally did not follow its
existing policies and procedures to ensure that the amounts claimed for hospital outpatient
clinical laboratory services and submitted for Federal reimbursement did not exceed the
allowable payment amounts.

RECOMMENDATIONS

We recommend that the State agency:

   •    refund $616,832 to the Federal Government and

   •    follow its existing policies and procedures to ensure that the amounts claimed for hospital
        outpatient clinical laboratory services and submitted for Federal reimbursement do not
        exceed the Medicare fee schedule amounts.




                                                 5
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings. The State
agency’s comments are included in their entirety as the Appendix.




                                               6
APPENDIX
                                                                                       Page 1 of 12
                                APPENDIX: STATE AGENCY COMMENTS 



                               The Commonwealth of Massachusetts
                           Executive Office ofHealth and Human Services
                                          Office of Medicaid
                                        One Ashburton Place
                                         Boston,.MA 02108                                JUDYANN BIGBY, M .D.
 DEVAL L. PATRJCK
     Governor                                                                                  Secretary

TIMOTHY P. MURRAY                                                                        JULIAN J. HARRIS, M.D.
 Lieutenant Governor                                                                        Medicaid Director



             November 16, 2012

             Michael J. Armstrong
             Regional Inspector General for
             Audit Services
             Office of Audit Services
             JFK Federal Building
             15 New Sudbury Street, Room 2425
             Boston, MA 02203

             Re:       Report Number: A-O 1-12-0005

             Dear Mr. Armstrong:

             Thank you for the opportunity to respond to the above referenced report titled
             Massachusetts Generally Implemented Recommendations From Prior Review of
             Claims for Hospital Outpatient Clinical Laboratory Services (Report Number: A­
             01-12-0005). The Executive Office of Health and Human Services is committed
             to ensuring the integrity of the MassHealth program. Accordingly, we
             appreciate the comprehensive review your office has conducted. We are pleased
             your office has found MassHealth has beey" in general, compliant with the
             previous audit findings from 2004 (A-OI-02-00015).

             In the attached response, we have reproduced your office's fmdings and
             recommendations. In addition, we have summarized in the body of our
             response each instance of concurrence with a statement deSCribing the
             corrective action plan we have already taken or are planning.
             If you have any questions or would like to discuss. please let us know.

             Sincerely.


                       r   r-
             Dr. Julian J\ H'arrts. M.D .. M.B.A .• M.Sc.
             Medicaid Oii~~tor

             Attachments (3)
                                                                               Page 2 of 12

Attachment to November 15, 2012 Letter to Michael Armstrong from Dr. Julian J. Harris
Findings and recommendations as presented in Draft Report A-O 1-12-00005 with EOHHS
responses                                  .

OIG Findings and Recommendations (Draft Report: A-Ol-12-00005)

FINDINGS and RECOMMENDATIONS

The State agency implemented the first recommendation from our prior audit. Specifically,
the State made an adjustment on its next quarterly report of expenditures of $8.2 million
($4.1 million Federal share). In general, the State agency implemented our prior audit's
second recommendation to ensure that amounts claimed for laboratory services and
submitted for Federal reimbursement do not exceed the Medicare fee schedule amounts.
However, for a small number of services (57,412 of the 17,979,166 services that we reviewed)
the State agency paid hospital providers more than the .payment amounts in the Medicare fee
schedule. As a result, the Federal Reimbursement claimed by the State agency exceeded the
rates allowed by Federal and State reqUirements by $1.094,560 ($616,832 Federal share).

The Medicaid overpayments occurred because the State agency occasionally did not follow its
existing poliCies and procedures to ensure that the amounts claimed for hospital outpatient
clinical laboratory services and submitted for Federal reimbursement did not exceed the
Medicare fee schedule amounts.

Federal and State Requirements

Section 1903(1)(7) of the Act, which is expanded in section 6300 of the CMS State Medicaid
manual, provides that no Federal finanCial participation would be aVailable to any amounts
expended for clinical diagnostic laboratory tests that exceeded the amount that would be
recognized under the Medicare program.

The Massachusetts State Plan Attachment 4.19-B states that the maximum payment for a
laboratory service shall be the lowest of (1) the maximum amount identified on the fee
schedule in the Code of Massachusetts Regulations, (2) the usual and customary fee, or (3)
the amount recognized under Medicare.

CMS's Medicare Claims Processing Manual., chapter 16. section 20. states that clinical
laboratory tests are reimbursed on the basis of the Medicare fee schedule published annually
by CMS. For each HCPCS code, Medicare pays the lesser of (1) actual charges, (2) the
national limitation amount on the CMS fee schedule, or (3) the CMS fee schedule amount for
the State or local geographic area.

Medicaid Payments Exceeded Amounts Allowed by Medicare

The State agency generally claimed Federal Medicaid reimbursement for hospital outpatient
clinical diagnostic laboratory services in accordance with Federal and State requirements. Of
the 17.979.166 services that we reviewed, The Medicaid payments made by the State agency
for 17.921. 754 services did not exceed the Medicare fee schedule amounts. However, for the
remaining 57.412 services the State agency paid providers more than would have been paid
under the Medicare program. As a result. the Federal reimbursement for claimed by the
State agency exceeded the rates allowed by Federal and State requirements by .$1.094.560
($616,832 Federal share).




                                                                                                2
                                                                               Page 3 of 12


We determined whether the Medicaid payments for hospital outpatient clinical diagnostic
laboratory services were made In accordance with Federal and State requirements by
calculating the allowable and unallowable paid amounts for each Individual service. For
example. during calendar year 2008 a provider billed $187 to the State agency for one unit of
service for HCPCS code 87901 (genotype DNA HIV reverse testing). The state agency paid the
amount t provider and claimed the same amount fo~ federal Medicaid reimbursement. On
the Medicare fee schedul~ for 2008, the nationallirmt was $360 per unit and the State limit
for Massachusetts was $115 per unit. Since the State limit was lower than the actual charge
and the National limit. we determined that the allowable amount payment was $115 for one
unit.. As a result. we identified Medicaid payments that exceeded the amounts allowed by
Medicare for each calendar year as follows:

 Calendar                   Claimed Services                   Services Exceeding Medicare
 Year                                                                  Fee Schedule
                   Number of            Paid Amount           Number           Unallowable
                   Line Items                                 of Line          Amount
                                                              Item
 2006              3.210.638            $30.153.760           7.761            $213,050
 2007              3.392.988            31.669.852            8.622            130.296
 2008              3.585.826            32.852.772            10.159           135.897
 2009              3.788.364            35.552.754            18.235           339.789
 2010              4.001.350            39.089,539            12.635           275.528
 Total             17,979.166           $169.318,677          57.412           $1.094,560

Cause of Medicaid Overpayments 

The Medicaid overpayments occurred because the State agency occasionally did not follow its 

existing policies and procedures to ensure that the amounts claimed for hospital outpatient 

clinIcal laboratory services and submitted for Federal reimbursement did not exceed the 

Medicare fee schedule payment amounts. 


Recommendations: 

We recommend that the State agency: 

        • 	 Refund $616.832 to the Federal G9Y5!mment and
        • 	 Follow it's existing poliCies and procedures to ensure that the amounts claimed
            for hospital outpatient clinical laboratory services and submitted for federal
            reimbursement do not exceed the Medicare fee schedule amounts.




                                                                                                3
                                                                                                Page 4 of 12


EOHHS Response

Overview 	 has reviewed the list of 57,412 claim lines totaling $ 1,094,560 that the OIG is
MassHealth
alle eding has been overpaid. In an effort to consolidate this list of claims, we have prepared
the ~ollOwing charts. These charts combine the 5 years of OIG alleged claim overpayments
and places these into three distinct groupings which we will use to better illustrate our
findings.
                    CLAIMS
                                                                          OVERPAYMENTS
              2568 	                                     $405,426
   ~~~__~~~~-r12rO~5~6______~
                                Ii] HIV Resistance
                                                                                         OHIV
                                                                                          Resistance

                                • Out of State                                            • Out of State


                                DSysteml
                                 Payment                                                  OSysteml
                                 Issues                                                    Payment
                                                                                           Issues
                                                                    $320,854




System/Payment Issues
MassHealth acknowledges that 42,788 claims were overpaid (totaling $405,426) over the five
year audit period due to NewMMIS implementation issues, variant payment methodologies,
and MMIS claim payment system issues. The following table further categorizes these
claims so that we can better explain which of these claims were overpaid and what corrective
action we are planning (if not already done). Since these claims did not comply with the
agreement set forth under the previous audit (Report Number A-O 1-02-00005), MassHealth
will repay CMS its federal share for the $405,426 in overPayments found under the ~iG's
draft report.                                     ..
 Category              Claims        $               Corrective Action 

 Services with         35,903        $245,521        MassHealth will review the current MMIS payment 

 Professional                                        structure, as well as the fee schedules, to determine the 

 Component                                           best possible solution to ensure approprtate payment of the
 Surgical Rates                                      following HCPCS codes: 83020, 83912. 84165. 84166,
 and Clinical                                        84181,84182.85390.85576.86255.86256,86320,
                                                     86325,86327.86334.86335.87164. 87207.88371,
 Laboratory Rates
                                                     88372, and 89060. 

 Chronic               4,565         $63,105         MassHealth is reviewing the MMIS payment system for 

 Outpatient                                          these services to ensure these providers are correctly paid 

 Hospitals                                           the clinical laboratory fee going fOIWard. 

 (Prov Type 82) 

 Semi- Acute           441          $14,696          Effective January 2011, new rates were established for 

 Outpatient                                          this provider type. MassHealth now pays at 66.58% of 

 Hospitals                                           costs for all services prOvided. This new rate methodology 

 (Prov Type 75)                                      should allow MassHealth to be compliant for most 

                                                     laboratory services. 

 Other                  1879        $82,104 	        MassHealth will review its MMIS payment system and
                                                     update any known payment defect if it hasn't done so
                                                     already. The successful implementation of the NewMMIS
                                                     system should have alleviated many of the issues which
                                                     caused these claim overpayments.

                                                                                                                     4
                                                                                                     Page 5 of 12


       Out of State Acute Outpatient Hospital Payments
       Statement
       The OIG identified 12,056 claims totaling $320,854 in potential overpayments which were
       paid to out of state acute outpatient hospitals. Since these claims did not comply with the
       agreement set forth under the previous audit (Report Number A-01-02-00005), MassHealth ·
       will repay CMS its federal share of the $320,854 overpaid due to this non-compliant payment
       methodology.
        Corrective Action           .
        MassHealth has already taken corrective action to ensure out of state hospital laboratory
        services are paid correctly going forward. Effective 5/25/2012, MassHealth began paying
        laboratory services performed by out of state hospitals at the rates set forth in the DHCFP
        clinical laboratory fee scheduled (114.3 CMR 20.00). Acute Outpatient Hospital Transmittal
        Letter 27 (AOH.27- Attachment 2) introduced this updated payment methodology. 

        Laboratory services performed by out of state hospitals are now paying correctly. 


        HIV Resistance Testing
        Statement
        The OIG identified 2568 cla1ms totaling $368,280 in potential overpayments which were paid
        to hospital providers for HN resistance testing (HCPCS code 87901- Infectious agent
        genotype analysis ~y nucleiC acid (DNA or RNA); HN-l, reverse transcrtptase and protease
        regions). These claims were paid correctly according to the rates set forth in the DHCFP
        clinical laboratory fee schedule (114.3 CMR 20.00).
       HIV resistance testing was first added as a covered service beginning January I, 2002. Prior
       to its adoption, MassHealth received a State Medicaid Director letter from January 2001
       (State Med Let Jan 01- Attachment 3) instructing agencies to pay for HN resistance testing.
       The letter directed states to set a rate necessary to assure adequate access for these
       services l . During the rate development process, the Division of Health Care Finance and
       Policy (now operating as the Center for Health Information and Analysis) spoke with health
       care advocates and surveyed other Medicaid payers to determine an appropriate
       reimbursement as instructed by the State Medicaid directive. It was determined that the
       rate should be based on a percentage of the National Medicare rate for these services rather
       than the lesser MA Medicare rate. Since its adoption as a covered service, the rates for this
       service has been set at a percentage of the highei-National Medicare rate as opposed to the
       lesser MA Medicare rate.
       MassHealth acknowledges the rates for this service exceeded the MA Medicare rate and thus
       we have not been compliant with the terms set forth under the previous audit (Report
       Number A-OI-02-00005). MassHealth will repay CMS its federal share ofthe $368,280
       which was overpaid for these services. MassHealth will work with the Center for Health
       Information and Analysis to set a rate that does not exceed the MA·Medicare rate going
       forward.

       Conclusion
       MassHealth acknowledges that it has overpaid for the services referenced above. MassHealth
       will repay CMS its federal share ($616.832) of the $1.094,560 found by the OIG as
       overpayments. In addition, MassHealth will work on a corrective action plan for those
       services identified as overpayments to ensure that the amounts claimed for hospital
       outpatient clinical laboratory services and submitted for federal reimbursement do not
       exceed MA Medicare fee schedule amounts.

1 As stated under the section titled Cost in the above referenced letter: Reimbursement for the genotype assay test range from
$250 to $500 and $625 to $900, respectively. State Medicaid Agencies choosing to cover these tests should determine an
adequate payment amount with their providers in their States to assure appropriate access to these tests. Payment should meet
Federal requirements of economy and efficiency while assuring appropriate access to these services. Section 1903(i)(7) of the
Social Security Act and section 63~O of the State Medicaid manual provide that Medicaid payments cannot exceed what Medicare
would pay for these tests (the MedIcare upper limit) when Medicare establishes a national limitation amount (NLA).
                                                                                                                             5
                                                                                                                                    Page 6 of 12




                       ·~  .                                    .   Commonwealth of Massachusetts



\VI
                        ~"                                          Executive Office of Health and Human Services
"       ;          "         .       ";          .        ' "
                                                                    Office of Medicaid
        :.";,            :            ... ,      ,-:                www,rnt:/.$s.gov/massheallh
    •       • '.   _~.'. ~       : c' \ _ ;,:;       .'




                                                                                                         MassHealth
                                                                                                         Transmittal LeUer AOH-27
                                                                                                         May 2012

               TO:                               Acute Outpatient Hospitals Participating in MassHealth

FROM:                                                Julian J. Harris, M.D., Medicaid Director          )r~~~
                RE:                                  Acute Outpatient Hospital Manual (Out-of-St~te Services)

This letter transmits revisions to the Acute Outpatient Hospital Manual that clarify when out-of­
state services are covered by MassHealth. It also describes changes in out-of-state acute
outpatient hospital rates that- are addressed in Mass Health's administrative and billing
regulations. See 130 CMR 450.233.

Out-of-State Acute Outpatient Hospital Rates

Effective for May 25, 2012, MassHealth is changing the way it pays for out-of-state acute
outpatient hospital services. Effective for services provided on or after May 25,2012 , out-of-state
acute outpatient hospitals will be paid at the median payment amount per episode (PAPE) in
effect for in-state acute hospitals on the date of service, as calculated by EOHHS, or in
accordance with the applicable fee schedule established by the Division of Health Care Finance
and Policy for services for which in-state acute hospitals are not paid the PAPE.

These rates will be updated each subsequent MassHealth Hospital Rate Year (HRY). The
MassHealth HRY generally Is in effect from October 1, through September 30, of a given year,
and are published on the MassHealth Web site at www.mass.gov/masshealth/pubs.Click on
Special Notices for Hospitals.                                 '

These regulations are effective May 25,2012.

MassHealth Web Site

This transmittal latter and attached pages are available on the MassHealth Web site at
www,mass.gov/masshealth .

Questions
If you have any questions about the information in this transmittal letter, please contact
MassHealth Customer Service at 1-800-841-2900, a-mail your inquiry to
providersupport@mahealth.net, or fax your inquiry to 617-988-8974.

NEW MATERIAL
  (The pages listed here contain new or revised language.)
              Acute Outpatient Hospital Manual
                                   Pages 4-5 and 4-6
OBSOLETE MATERIAL
  (The pages listed here are no longer in effect.)
              Acute Outpatient Hospital Manual

                                   Pages 4-5 and 4-6 -                          transmitted by Transmittal Letter AOH-18
                                                                                                                         Page 7 of 12




                   ·J"'i... .
                   .~~.
                                                          Commonwealth of Massachusetts 





W
· I
  ·'·~··
    "              "'..                          '.       Executive O/flce of Health and Human Services 

              ."          .                   :,'     

                                                          Offlce of Medtcaid
        ':.               . .,'         -,,' 


.        ""'.                           ' . '

                                                          www.mass.gou/massheaIth
        . ""' :.::    ,    ... ,"   .... :.


                                                                                             MassHealth
                                                                                             Transmittal Letter AOH-27
                                                                                             May 2012

               TO:                            Acute Outpatient Hospitals Participating in MassHealth

FROM:                                         Julian J. Harris, M.D., Medicaid Director ·   >.Jt"cU{w.. .
                                                                                            lJ    "\
               RE:                            Acute Outpatient Hospital Manual (Out-ot-State Services)

This letter transmits revisions to the Acute Outpatient Hospital Manual that clarify when out-of­
state services are covered by MassHealth. It also describes changes in out-of-state acute
outpatient hospital rates that are addressed in MassHealth's administrative and billing
regulations. See 130 CMR 450.233.

Out-of-State Acute OlJtpatient Hospital Rates

Effective for May 25, 2012, MassHealth is changing the way it pays for out-of-state acute
outpatient hospital services. Effective for services provided on or after May 25, 2012, out-ot-state
acute outpatient hospitals will be paid at the median payment amount per episode (PAPE) in
effect tor In-state acute hospitals on the date of seNice, as calculated by EOHHS, or in
accordance with the applicable· fee schedule-established-by the Division ofHealth· Care ·Finance
and Policy for services for which in-state acute hospitals are not paid the PAPE.

These rates will be updated each subsequent MassHealth Hospital Rate Year (HRY). The
MassHealth HRY generally is in effect from October 1, through September 30, of a given year,
and are published on the MassHealth Web site at www.mass.gov/masshealth/pubs.Click on
Special Notices for Hospitals .

These regulations are effective May 25, 2012 .

MassHealth Web Site

This transmittal letter and attached pages are available on the MassHealth Web site at
www.mass,gov/masshealth.

Questions
If you have any questlor.s about the information in this transmittal letter, please contact
MassHealth Customer Service at 1-800-841-2900, e-mail your inquiry to
providersupport@mahealth.net, or fax your inquiry to 617-988-8974.

NEW MATERIAL
  (The pages listed here contain new or revised language.)
               Acute Outpatient Hospital Manual
                          Pages 4-5 and 4-6
OBSOLETE MATERIAL
  (The pages listed here are no longer in effect.)
               Acute Outpatient Hospital Manual

                           Pages 4-5 and 4-B -                      transmitted by Transmittal Letter AOH-18
                                                                                                        Page 8 of 12




    Commonwealth of Massachusetts                  Subchapter Number and Title                   Page
            MassHealth                                4. Program Regulations                      4-6
       Provider Manual Series                             (130 CMR 410.000)
                                                         Transmittal Letter                      Date
     Acute Outpatient Hospital Manual
                                                               AOH-27                          05/25/12


         (8) Out of State
             (1) Out-of-state hospital outpatient and hospital-licensed health center services provided to an
             eligible MassHealth member are covered in the following instances:
                  (a) emergency care hospital outpatient services provided to a member;
                  (b) hospital outpatient services provided to a member whose health would be endangered
                  if the member were required to travel to Massachusetts;
                  (c) hospital outpatient services provided to a member when MassHealth determines on
                  the basis of medical advice that the medical service is more readily avai Jable in the other
                  state;
                  (d) it is general practice for members in a particular locality to use medical resources in
                  another !:tate;
                  (e) hospital outpatient services provided to a member who is authorized to reside or who
                  is placed out of state by the Massachusetts Department of Social Services or by a Chapter
                  766 core team evaluation;                                                                  .
                  (t) hospital outpatient services provided to a member who has been authorized by the
                  MassHealth agency to reside in an out-of-state nursing facility; or
                  (g) when prior authorization has been obtained from the MassHealth agency for
                  nonemergency services provided to a member by an out-of-state hospital outpatient
                  department that is more than 50 miles from the Massachusetts border.
             (2) To participate in MassHealth, an out-of-state hospital outpatient department or hospital­
             licensed health center must obtain a MassHealth provider number and meet the following
             criteria:
                  (a) it operates under a hospital license from or is approved as a hospital by the governing
                  or licensing agency in its state;
                  (h) it participates in the Medicare program; and
                  (c) it participates in that state's Medicaid program (Qr equivalent).
             (3) Payment for out-of-state hospital outpatient and hospital-licensed health center services is
             made in accordance with 130 CMR 450.233 :-:'

410.405: Noncovered Services

         (A) The MassHealth agency does not pay for any ofthe foiJowing services:
             (I) nonmedical services, such as social, educational, and vocational services;
             (2) cosmetic' surgery;
             (3) canceled or missed appointments;
             (4) telephone conversations and consultations;
             (5) court testimony;
             (6) research or the provision of experimental, unproven, or otherwise medically unnecessary
             procedures or treatments, specifically including, but not limited to, sex-reassignment surgery,
             thyroid cartilage reduction and any other related surgeries and treatments, including pre- and
             post-sex-reassignment surgery hormone therapy. Notwithstanding the preceding sentence, the
             MassHealth agency will continue to pay for· post-sex-reassignment surgery hormone therapy
             for which it had been paying immediately prior to May IS, 1993;
             (7) the provision of whole bloOd; however, administrative and processing costs associated
             with the provision of blood and its derivatives are covered; and
             (8) the treatment of male or female infertility (including, but not limited to, laboratory tests,
             drugs, and procedures associated with such treatment).
                                                                                                           Page 9 of 12



    Commonwealth of Massachusetts                    Subchapter Number and Title                   Page
            MassHealth                                  4. Program Regulations                       4-5
       Provider Manual Series                               (130 CMR 410.000)
                                                           Transmittal Letter                       Date
      Acute Outpatient Hospital Manual
                                                                 AOH-27                           05J2~/12



          Trimester - one of three three-month terms in a normal pregnancy. If the pregnancy has existed
          for less than 12 weeks, the pregnancy is in its first trimester. If the pregnancy has existed for 12 or
          more weeks but less than 24 weeks, the pregnancy is in its second trimester. If the pregnancy has
          existed for 24 or more weeks, the pregnancy is in its third trimester. For the purposes of 130 CMR
          410.000, the elapsed period of gestation is calculated in accordance with regulations of the
          Massachusetts Department of Public Health.

          Unit-Dose Distribution System - a means of packaging or distributing drugs, or both, devised by
          the manufacturer, packager, wholesaler, or retail pharmacist. A unit dose contains an exact dosage
          of medication and may also lndicate the total daily dosage or the times when the medication
          should be taken. Such lImt doses mayor may not be in unit-dose packaging.

          Vocational Rehabilitative Services - services such as vocational assessments, job training; career
          counseling, and job placement.

410.403: Eligible Members

          (A) (1) 	 MassHs;alth Members. MassHealth covers outpatient hospital services only when
              provided to eligible MassHealth members, subject to the restrictions and limitations described
              in MassHealth regulations. 130 CMR 450.105 specifically states, for each MassHealth
              coverage type, which services are covered and which members are eligible to receive those
              services.
              (2) Recipients of the Emergency Aid to the Elderly. Disabled and Children Program. For
              information on covered services for recipients of the Emergency Aid to the Elderly, Disabled
              and Children Program, see 130 CMR 450. 106.

          (B) 	For information on verifYing member eligibility and coverage type, see 130 CMR 450. I 07.

410.404: Provider Eligibility

              Payment for the services described in 130 CMR 410.000 is made only to hospital outpatient
          departments participating in MassHealth on the date of service.        .

          (A) In State
              (1) To participate in MassHealth, acute hospital outpatient departments and hospital-licensed
              health centers located in Massachusetts must
                  (a) operate under a hospitaJ license issued by the Massachusetts Department of Public
                  Health;
                  (b) have a signed provider agreement that specifies a payment methodology with the
                  MassHealth agency; and
                  (c) participate in the Medicare program.
              (2) To participate in MassHealth, nonacute hospital outpatient departments located in
              Massachusetts must
                  (a) operate under a hospital license issued by the Massachusetts Department of Public
                   Health or the Massachusetts Department of Mental Health;
                  (b) 	have a signed provider agreement for participation in MassHealth; and
                  (c) participate in the Medicare program.
                                                                              Page 10 of 12




SMDL #01-005
January 8, 2001

Dear State Medicaid Director:

This letter provides information about two relatively new laboratory tests for the
management of Human Immunodeficiency Virus (HIV) disease to assist State
Medicaid agencies in establishing policies regarding coverage, coding, and reasonable
payment for these tests. The two tests are genotype human immunodeficiency virus
type-1 (HIV-1) testing (mutation analysis) for drug resistance and phenotype HIV-1
drug susceptibility (commonly referred to as resistance) testing.

Because the technology to perform these tests has only recently become widely
available, State Medicaid Agencies and other public and private health insurers are
now faced with many complex issues concerning coverage, payment, and coding.
Laboratories, manufacturers, community-based AIDS organizations, public health
researchers, and health insurers have also asked HCFA for guidance and assistance
regarding these tests.

Standards of Care

On January 19, 2000, a panel of experts convened by the U.S. Department of Health
and Human Services and the Henry J. Kaiser Family Foundation updated their
guidance on clinical practices for the treatment of HIV infection, entitled "Guidelines
for the Use of Antiretroviral Agents in HIV Infected Adults and Adolescents." The
Guidelines are generally accepted as the standard of care in the United States. With
regard to drug resistance testing, the Guidelines state that both the genotype and
phenotype drug resistance assays are recommended in certain circumstances.

The guidelines recommend resistance testing in two situations: (1) When the patient
presents with virologic failure during Highly Active Antiretroviral Therapy (HAART),
and (2) When the patient has suboptimal suppression of viral load after initiation of
antiretroviral therapy. The Guidelines state that resistance testing is generally not
recommended with chronic HIV infection prior to initiation of therapy, after
discontinuation of drugs, and when the patient's plasma viral load is less than 1000
HIV RNA copies/mL. In the presence of acute HIV infection, the Guidelines state that
the provider should consider resistance testing. Since the publication of the
Guidelines in January, two additional studies have been completed that confirm the
effectiveness of genotypic testing.

Coverage

While there has been concern that none of the available genotype and phenotype
tests have received approval from the Food and Drug Administration (FDA), only
"test kits" for interstate commerce require this approval. Currently, most genotype
and all phenotype testing is being performed under the "homebrew" status and
therefore is not subject to FDA approval. Some manufacturers are currently seeking
FDA approval for genotype test kits. One manufacturer has a genotype kit that has
received an FDA status of Investigational Device Exemption (IDE) . The FDA regulates
how these non-FDA approved laboratory tests can be used, marketed, and
distributed.
                                                                            Page 11 of 12




While this information is important to States, HCFA and State Medicaid Agencies are
not responsible under Federal regulations for knowing whether laboratories or
manufacturers are complying with FDA requirements or for ensuring compliance with
these requirements, nor is FDA approval of a test/procedure a prerequisite for
Medicaid coverage. A State Medicaid agency can decide to cover an FDA-approved or
non-FDA approved laboratory test if the agency determines the test to be medically
necessary and if the test is provided by a qualified Medicaid laboratory that is
certified in accordance with the Clinical Laboratory Improvement Act (CLIA) to
perform such tests. In some States however, the Medicaid program is required by
State law to cover only FDA-approved products and therefore, the State Medicaid
agency must follow its own regulations.

If you have any questions that relate to FDA compliance requirements for HIV tests,
you may contact the Food and Drug Administration, Center for Biologics Evaluation
and Research, Office of Compliance & Biologics Quality, Division of Case
Management, 1401 Rockville Pike, suite 400 South, HFM-610, Rockville, MD 20852,
(301) 827-6201.

Cost

Reimbursement for the genotype assay test and phenotype assay test range from
$250 to $500 and $625 to $900, respectively. State Medicaid agencies choosing to
cover these tests should determine an adequate payment amount with the providers
in their States to assure appropriate access to these tests. Payment should meet
Federal requirements of economy and efficiency while assuring appropriate access to
these services. Section 1903(i)(7) of the Social Security Act and section 6300 of the
State Medicaid Manual provide that Medicaid payments cannot exceed what Medicare
would pay for these tests (the 'Medicare upper limit') when Medicare establishes a
national limitation amount (NLA). HCFA has set an NLA for the Medicare program for
these two tests effective January 1, 2001. Instructions on the fee schedule,
(Medicare Program Transmittal AB-00-109), can be found at
http://www . hcfa .gov/pubforms/transmit/AB00109.pdf.

Coding

The American Medical Association (AMA) has developed three new Current
Procedural Terminology (CPT) codes for the resistance tests. The effective date for
these codes is January 1, 2001. Genotype testing has one CPT code (87901).
Phenotype testing has two codes. The primary (87903) covers the first ten drugs
that are tested. The second code (87904) is to be used for each additional drug, up
to five drugs. The CPT manual specifies that code 87904 must be used in conjunction
with 87903.

Conclusion

Based upon the information contained in this letter, the technical attachment, and
the Guidelines regarding the recommended and optimal use of resistance testing,
State Medicaid agencies should provide coverage of these tests under the specific
clinical conditions outlined in the Guidelines and should determine what
reimbursement is reasonable to assure appropriate access to care.
                                                                           Page 12 of 12




We have enclosed some technical information about these tests that we believe will
be helpful to you and your State in establishing coverage and reimbursement. The
Guidelines are available upon request by calling 1-800-448-0440 or may be
downloaded from the Internet at http://www.hivatis.org/guidelines/adult/text/. We
hope that this information proves useful in your implementation of this new
laboratory test. If you have questions, please call Kurt Hartmann at (410) 786-0400.

Sincerely,

/s/
Timothy M. Westmoreland
Director
